    June 29, 2006




 Oversight Review
Report on Review of FY 2004 Single
Audit of the Civil Air Patrol, Inc.
(Report No. D-2006-6-004)




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Office of
  the Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760
  or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-
  8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                     OAIG-APO
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 1016)
                             Arlington, VA 22202-4704




Acronyms
GAS                   Government Auditing Standards
OMB                   Office of Management and Budget
WPBB&B                Wilson, Price, Barranco, Blankenship & Billingsley, P.C.
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




Audit Committee                                                       JUN 2 9 2006
Civil Air Patrol, Inc.

Chief Financial Officer
Civil Air Patrol, Inc.

Wilson, Price, Barranco, Blankenship & Billingsley, P.C.

SUBJECT: Report on Review of FY 2004 Single Audit of the Civil Air Patrol, Inc.
         Report No. D-2006-6-004 (Project No, D2006-DIPOAC-0146)

       We are providing this report for your information and use. As the oversight
Federal agency for the Civil Air Patrol, Inc., we performed a review of the Wilson, Price,
Barranco, Blankenship & Billingsley, P.C. (WPBB&B) single audit report and supporting
workpapers for the fiscal year ending September 30,2004, to determine whether the
audit was conducted in accordance with Government Auditing Standards (GAS) and the
auditing and reporting requirements of Office of Management and Budget (OMB)
Circular A-133, "Audits of States, Local Governments, and Non-Profit Organizations"
(Circular A-133). Appendix A contains the scope and methodology for the review and
Appendix B shows the applicable compliance requirements.
       The Civil Air Patrol is a private, nonprofit civilian auxiliary of the United States
Air Force and is organized into eight geographic regions. The regions are subdivided
into wings located in the 50 States, the District of Columbia, and the Commonwealth of
Puerto Rico. The Civil Air Patrol expended $30.9 million under Cooperative Agreement
F4 1689-00-2-00 1 in FY 2004.
Review Results. In all material respects, the WPBB&B auditors met GAS and OMB
Circular A-133 requirements for the FY 2004 single audit, and the Civil Air Patrol
generally complied with OMB Circular A-1 33 reporting requirements except that the
FY 2004 reporting package did not include all prior audit findings from the FY 2002
audit as required by OMB Circular A-133. As a result, the auditors did not perform
followup procedures to determine the status of the Civil Air Patrol's corrective actions on
the FY 2002 Federal program findings. The Defense Contract Audit Agency performed
part of the FY 2002 Federal program audit and reported 11 findings that required
corrective actions. OMB Circular A-133 §-.3 15(b) requires that the status of audit
findings from the prior two single audit reports be included in the current year Summary
Schedule of Prior Year Audit Findings. The purpose of the Summary Schedule of Prior
Year Audit Findings is to provide information for report users to track the status of
corrective actions and to facilitate performance of OMB Circular A-133 audit followup
procedures. Based on discussions with the Civil Air Patrol, we believe this was an
inadvertent omission due in part to the FY 2003 change in auditors for the Federal
program audit.
Recommendation. We recommend that the Chief Financial Officer of the Civil Air
Patrol include all FY 2002 audit findings reported by the Defense Contract Audit Agency
in the Summary Schedule of Prior Year Audit Findings for use in the
FY 2005 single audit, and ensure that the auditors perform the required followup
audit procedures on all prior audit findings.
The Civil Air Patrol Comments: The Civil Air Patrol concurred with our
recommendation and has provided the WPBB&B auditors a status of DCAA's FY
2002 audit findings which will be included in the FY 2005 Summary Schedule of
Prior Year Audit Findings. Management comments are included in its entirety at
the end this report.
Other Matters of Interest. The WPBB&B auditors' workpaper documentation
was concise and easy to follow and the report findings contained sufficient details
for Civil Air Patrol and the Air Force to take the appropriate actions. However, to
provide a better audit trail and avoid potential noncompliance with OMB Circular
A-1 33 reporting requirements, the WPBB&B auditors should enhance audit
documentation for the basis of compliance requirement applicability, audit
followup procedures, and the evaluation of reported findings related to both the
financial statements and Federal awards.
       We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Ms. Janet Stem at (703) 604-8750
(DSN 664-8750) or Mr. Wayne Berry at (703) 604-8789 (DSN 664-8789). See
Appendix C for the report



                                     ~ s s i d a nInspector
                                                  t         General
                                      Audit Policy and Oversight
Appendix A. Quality Control Review Process

Background, Scope, and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the
financial management of State and Local Governments and nonprofit organizations by
establishing one uniform set of auditing and reporting requirements for all Federal award
recipients required to obtain a single audit. OMB Circular A-133 establishes policies that
guide implementation of the Single Audit Act and provides an administrative foundation
for uniform audit requirements of non-Federal entities administering Federal awards.
Entities that expend $300,000 ($500,000 for fiscal years ending after December 31, 2003)
are subject to the Single Audit Act and the audit requirements in OMB Circular A-133
and therefore must have an annual single or program-specific audit performed under
Governmental Auditing Standards and submit a complete reporting package to the
Federal Audit Clearinghouse.

We reviewed the WPBB&B, P.C., audit of the Civil Air Patrol for FY 2004 and the
resulting reporting package that was submitted to the Federal Audit Clearinghouse dated
August 5, 2005, using the 1999 edition of the “Uniform Quality Control Guide for the
A-133 Audits” (the Guide). The Guide applies to any single audit that is subject to the
requirements of OMB Circular A-133 and is the approved President’s Council on
Integrity and Efficiency checklist used for performing the quality control reviews. We
performed the review from March through June 2006. The review focused on the
following qualitative aspects of the single audit:


       •   Qualification of Auditors,

       •   Independence,

       •   Due Professional Care,

       •   Planning and Supervision,
       •   Internal Control and Compliance Testing,

       •   Schedule of Expenditures of Federal Awards,

       •   Schedule of Findings and Questioned Costs,

       •   Summary Schedule of Prior Audit Findings, and

       •   Data Collection Form.




                                            3
Appendix B. Compliance Requirements
The WPBB&B auditors determined that the following requirements are applicable to the
Single Audit of the Civil Air Patrol for the fiscal year ended September 30, 2004.


            Compliance Requirements                  Applicable         Not Applicable

  Activities Allowed/Unallowed                           X

  Allowable Costs/Cost Principles                        X

  Cash Management                                        X

  Davis-Bacon Act                                                              X

  Eligibility                                                                  X

  Equipment and Real Property Management                 X

  Matching, Level of Effort, Earmarking                                        X

  Period of Availability of Federal Funds                X

  Procurement, Suspension, and Debarment                 X

  Program Income                                         X

  Real Property Acquisition and Relocation                                     X
  Assistance
  Reporting                                              X

  Subrecipient Monitoring                                                      X

  Special Tests and Provisions                                                 X




                                            4
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Non-Government Organizations
Board of Directors, Civil Air Patrol, Inc.
Audit Committee, Civil Air Patrol, Inc.
CFO, Civil Air Patrol, Inc.
Wilson, Price, Barranco, Blankenship & Billingsley, P.C.

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census




                                           5
Wilson, Price, Barranco, Blankenship &
Billingsley, P.C. Comments




                      7
8
The Civil Air Patrol Comments




                      9
